PX

C@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-312
ALI EKHLASSI,
Petitioner,
v.
NATIONAL LLOYDS INSURANCE COMPANY,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
ASSOCIATION OF PUBLIC INSURANCE ADJUSTERS AND THE TEXAS ASSOCIATION OF
PUBLIC INSURANCE ADJUSTERS AS AMICI CURIAE SUPPORTING PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4924 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 7th day of October, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ CLL
State of Nebraska . ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

 

38749
